  AUDIT OF THE SOCIAL SECURITY
ADMINISTRATION’S FISCAL YEAR 2001
     FINANCIAL STATEMENTS
              December 11, 2
December 11, 2001

To: Jo Anne B. Barnhart
   Commissioner

This letter transmits the PricewaterhouseCoopers LLP (PwC) report on the audit of the Fiscal Years (FY)
2001 and 2000 financial statements of the Social Security Administration (SSA) and the results of the Office
of the Inspector General's (OIG) review thereof. PwC's report includes the firm’s Opinion on the Financial
Statements, its Report on Management's Assertion About the Effectiveness of Internal Control, and its report
on SSA's Compliance With Laws and Regulations.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation.

PwC’s examination is required to be made in accordance with generally accepted auditing standards,
Government Auditing Standards issued by the Comptroller General of the United States, and the Office of
Management and Budget (OMB) Bulletin No. 01-02. The audit includes obtaining an understanding of the
internal control over financial reporting, and testing and evaluating the design and operating effectiveness of
the internal control. Due to inherent limitations in any internal control, there is a risk that error or fraud may
occur and not be detected. The risk of fraud is inherent to many of SSA’s programs and operations,
especially within the Supplemental Security Income (SSI) program. In our opinion, people outside of the
organization perpetrate the majority of frauds against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance with Laws and
Regulations

The Chief Financial Officers (CFO) Act of 1990 (P.L. 101-576), as amended, requires SSA's Inspector
General (IG) or an independent external auditor, as determined by the IG, to audit SSA's financial statements
in accordance with applicable standards. Under a contract monitored by the OIG, PwC, an independent
certified public accounting firm, performed the audit of SSA's FY 2001 financial statements. PwC also
audited the FY 2000 financial statements, presented in SSA's Performance and Accountability Report for FY
2001 for comparative purposes. PwC issued an unqualified opinion on SSA's FY 2001 and 2000 financial
statements. PwC also reported that SSA management’s assertion, that its systems of accounting and internal
control are in compliance with the internal control objectives in OMB Bulletin No. 01-02, is fairly stated in
all material respects. However, the audit identified one reportable condition in SSA's internal control. The
control weakness identified is: SSA Needs to Further Strengthen Controls to Protect Its Information.
This is a repeat finding from prior years. It is the opinion of PwC that, SSA has made notable progress in
addressing the information protection issues raised in prior years. Despite these accomplishments, SSA’s
systems environment remains threatened by security and integrity exposures impacting key elements of its
distributed systems and networks. The general areas where exposures occurred included:
•   Implementation, enforcement, and ongoing monitoring of technical security configuration
    standards;
•   Implementation, enforcement, and ongoing monitoring of technical standards and rules
    governing the operation of firewalls on the SSA network;
•   Monitoring controls over security violation, periodic review of user access, and firewall logs;
    and
•   Physical access controls at non-headquarters locations.
The results of PwC’s tests of compliance disclosed no instances of noncompliance with laws and regulations
that are required to be reported under Government Auditing Standards or OMB Bulletin No. 01-02.

OIG Evaluation of PwC Audit Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality of the audit
work performed, we monitored PwC's audit of SSA's FY 2001 financial statements by:
•   Reviewing PwC's approach and planning of the audit;
•   Evaluating the qualifications and independence of its auditors;
•   Monitoring the progress of the audit at key points;
•   Examining its workpapers related to planning the audit and assessing SSA's internal control;
•   Reviewing PwC's audit report to ensure compliance with Government Auditing Standards and
    OMB Bulletin No. 01-02;
•   Coordinating the issuance of the audit report; and
•   Performing other procedures that we deemed necessary.
Based on the results of our review, we determined that PwC planned, executed and reported the results of its
audit of SSA's FY 2001 financial statements in accordance with applicable standards. Therefore, it is our
opinion that PwC's work provides a reasonable basis for the firm's opinion on SSA's FY 2001 and 2000
financial statements and SSA management's assertion on the effectiveness of its internal control. Based on
our oversight of the audit, we concur with PwC’s finding of a reportable condition related to a weakness in
internal control.




                                                            James G. Huse, Jr
                                                            Inspector General of Social Security
                                                                                               PricewaterhouseCoopers LLP
                                                                                               1616 N. Fort Myer Dr.
                                                                                               Arlington VA 22209-3195
                                                                                               Telephone (703) 741 1000
                                                                                               Facsimile (703) 741 1616




                      REPORT OF INDEPENDENT ACCOUNTANTS


To Ms. Jo Anne B. Barnhart
Commissioner of Social Security

In our audit of the Social Security Administration (SSA), we found:

·   The consolidated balance sheets of SSA as of September 30, 2001 and 2000, and the related
    consolidated statements of net cost, consolidated statements of changes in net position, combined
    statements of budgetary resources, consolidated statements of financing, and statements of custodial
    activity for the fiscal years then ended are presented fairly, in all material respects, in conformity with
    accounting principles generally accepted in the United States of America;
·   Management fairly stated that SSA’s systems of accounting and internal control in place as of
    September 30, 2001 are in compliance with the internal control objectives in the Office of
    Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
    Statements, requiring that transactions be properly recorded, processed, and summarized to permit the
    preparation of the consolidated and combined financial statements in accordance with accounting
    principles generally accepted in the United States of America and that assets be safeguarded against
    loss from unauthorized acquisition, use or disposal; and
·   No reportable instances of noncompliance with the laws and regulations we tested.

The following sections outline each of these conclusions in more detail.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of SSA as of September 30, 2001 and
2000, and the related consolidated statements of net cost, consolidated statements of changes in net
position, combined statements of budgetary resources, consolidated statements of financing, and statements
of custodial activity for the fiscal years then ended. These financial statements are the responsibility of
SSA’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States, and OMB Bulletin No. 01-02. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the financial statements
are free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated and combined financial statements referred to above and appearing on
pages 65 through 85 of this performance and accountability report, present fairly, in all material respects,
the financial position of SSA at September 30, 2001 and 2000, and its net cost, changes in net position,
budgetary resources, reconciliation of net cost to budgetary resources, and custodial activity for the fiscal
years then ended in conformity with accounting principles generally accepted in the United States of
America.
REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS
OF INTERNAL CONTROL
We have examined management’s assertion that SSA’s systems of accounting and internal control are in
compliance with the internal control objectives in OMB Bulletin No. 01-02, requiring management to
establish internal accounting and administrative controls to provide reasonable assurance that transactions
are properly recorded, processed, and summarized to permit the preparation of the consolidated and
combined financial statements in accordance with accounting principles generally accepted in the United
States of America and that assets be safeguarded against loss from unauthorized acquisition, use or
disposal. SSA’s management is responsible for maintaining effective internal control over financial
reporting. Our responsibility is to express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants (AICPA), the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, and OMB
Bulletin No. 01-02 and, accordingly, included obtaining an understanding of the internal control over
financial reporting, testing and evaluating the design and operating effectiveness of internal control, and
performing such other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion. Our examination was of the internal control in
place as of September 30, 2001.

Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected. Also, projections of any evaluation of internal control over financial reporting to future
periods are subject to the risk that the internal control may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that SSA’s systems of accounting and internal control are in
compliance with the internal control objectives in OMB Bulletin No. 01-02, requiring that transactions be
properly recorded, processed, and summarized to permit the preparation of the consolidated and combined
financial statements in accordance with accounting principles generally accepted in the United States of
America and that assets be safeguarded against loss from unauthorized acquisition, use or disposal, is fairly
stated, in all material respects, as of September 30, 2001.

However, we noted certain matters involving the internal control and its operation that we consider to be a
reportable condition under standards established by the AICPA and by OMB Bulletin No. 01-02. A
reportable condition is a matter coming to our attention relating to significant deficiencies in the design or
operation of internal control that, in our judgment, could adversely affect the agency’s ability to meet the
internal control objectives described above. The reportable condition we noted is that SSA needs to further
strengthen controls to protect its information.

A material weakness, as defined by the AICPA and OMB Bulletin No. 01-02, is a reportable condition in
which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to the principal
financial statements being audited or to a performance measure or aggregation of related performance
measures may occur and not be detected within a timely period by employees in the normal course of
performing their assigned duties. We believe that the reportable condition that follows is not a material
weakness as defined by the AICPA and OMB Bulletin No. 01-02.
SSA Needs to Further Strengthen Controls to Protect Its Information
SSA has continued to make progress in addressing the information protection issues raised in prior years.
Specifically, in FY 2001 the agency has:

·   Conducted a risk assessment to identify critical assets and vulnerabilities as part of the Critical
    Infrastructure Protection project;
·   Issued a final security policy for the State Disability Determination Service (DDS) sites in accordance
    with the information security requirements included in the National Institute of Standards and
    Technology (NIST) Special Publication 800-18;
·   Established and published technical security configuration standards for NT, Unix, AS 400, and
    firewall servers;
·   Completed updates for accreditation and certification of key systems; and
·   Further strengthened physical access controls over the National Computer Center (NCC).

Although SSA has made improvements to its entity-wide security program and standards, we identified
weaknesses in controls that expose key elements of SSA’s distributed systems and networks to
unauthorized access to sensitive data. The general areas where exposures occurred included:

·   Implementation, enforcement, and ongoing monitoring of technical security configuration standards
    throughout the SSA environment, including systems housed in the NCC and off-site housed systems;
·   Implementation, enforcement, and ongoing monitoring of technical standards and rules governing the
    operation of firewalls on the SSA network;
·   Monitoring controls over security violations, periodic reviews of user access, and firewall logs; and
·   Physical access controls at non-headquarters locations, including SSA’s Regional Offices, Program
    Service Centers, and selected State DDS facilities.

These exposures exist primarily because SSA is in the process of implementing its enterprise-wide security
program. The following diagram represents a framework for a fully integrated and functional enterprise-
wide security program. This information security framework diagram incorporates the key system security
provisions of OMB Circular A-130, Appendix III, and associated NIST guidelines.
In fo rm atio n S ecu rity F ram ew o rk

                                           S en io r M an ag em en t C om m itm en t

                                                                   B u sin ess In itiativ es
                                                                                                             T h reats
                                                                       an d P ro cesses


                                     T ech n o lo g y S trateg y                               V u ln erab ility an d




                                                                                                                         Training and Awareness Program
                                           an d U sag e                                        R isk A ssessm en t
    Security Vision and Strategy




                                                                           P o licy


                                                                     S e cu rity M o de l


                                                     S ecu rity A rch itec tu re an d T ech n ical
                                                                    S tan d ard s

                                                  A d m in istrativ e an d E n d -U ser G u id elin es
                                                                  an d P ro ced u res

                                        E n fo rcem en t                M o n ito rin g              R eco v ery
                                          P ro cesses                   P ro cesses                  P ro cesses



                                   In fo rm atio n S ecu rity M anag em en t S tru ctu re


During fiscal year 2001, SSA has made progress in certain elements of this information security
framework; however, the weaknesses we identified show that elements of the framework related to the
implementation, enforcement, and monitoring of security policies and technical security standards need to
be addressed. Disclosure of detailed information about these weaknesses might further compromise
controls. Rather than provide such details in this report, we present them in a separate, limited-distribution
management letter, and we present in this report the following examples, which provide an overview of the
types of weaknesses we identified.

·                       Technical Standards Implementation and Ongoing Enforcement - Security configurations for four
                        technical environments were inconsistent with SSA guidelines for system configurations. These
                        inconsistencies represent weaknesses in controls over these systems, which could be exploited to
                        improperly access sensitive SSA systems and data. Further, no process has been established to monitor
                        configurations to determine that they remain consistent with the technical configuration standards once
                        implemented. Finally, a configuration standard has not been established to consistently address
                        security for one of the SSA platforms.
·                       Monitoring Processes - Monitoring of systems security within SSA’s network and distributed systems
                        environment has been inconsistent. Although SSA’s program for monitoring controls over internal
                        modems for dial-in access has been effective, its use of violation reports to monitor the effectiveness of
                        the mainframe security requires enhancement. Mainframe system security monitoring at headquarters
                        and non-headquarters facilities, such as SSA’s Regional Offices and Program Service Center sites and
                        State DDS facilities, was weak. Also, the monitoring of employees’ access to systems has not been
    periodically performed. Finally, the review of firewall logs is not consistently performed for the SSA
    firewalls.
·   Physical Security Enforcement Processes - Enforcement of security policies and procedures for
    physical access to information resources at non-headquarters locations, including SSA’s Regional
    Offices, Program Service Centers and selected State DDS facilities was not sufficient. We noted
    weaknesses in physical security at these sites that could allow unauthorized employees or visitors to
    access sensitive SSA information.

Until a complete security framework is implemented and maintained, SSA’s ability to mitigate effectively
the risk of unauthorized access to, and/or modification or disclosure of, sensitive SSA information will be
impaired. Unauthorized access to sensitive data can result in the loss of data, loss of Trust Fund assets,
and/or compromised privacy of information associated with SSA’s enumeration, earnings, benefit payment
processes and programs. The need for a strong security framework to address threats to the security and
integrity of SSA operations will grow as the agency continues to implement Internet and Web-based
applications to serve the American public.

Recommendations

We recommend that SSA continue its efforts to fully implement the information security framework by:

·   Assigning specific resources to complete the full information security framework, with priority given
    to implementation, enforcement, and monitoring of technical security standards;
·   Fully implementing technical security configuration standards;
·   Establishing a process to determine that configuration standards remain consistently enforced;
·   Establishing and enforcing effective procedures for monitoring security violations, periodic review of
    access assignments and firewall log reviews; and,
·   Consistently enforcing policies and procedures for physical access to information resources based on
    the concept of access required to perform assigned job responsibilities.


REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS
We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States, and OMB Bulletin No. 01-02.

The management of SSA is responsible for complying with laws and regulations applicable to the agency.
As part of obtaining reasonable assurance about whether the agency’s financial statements are free of
material misstatement, we performed tests of SSA’s compliance with certain provisions of applicable laws
and regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts and certain other laws and regulations specified in OMB Bulletin No. 01-02,
including the requirements referred to in the Federal Financial Management Improvement Act (FFMIA) of
1996. We limited our tests of compliance to these provisions and we did not test compliance with all laws
and regulations applicable to SSA.

The results of our tests of compliance disclosed no instances of noncompliance with laws and regulations
that are required to be reported under Government Auditing Standards or OMB Bulletin No. 01-02.

The objective of our audit of the financial statements was not to provide an opinion on overall compliance
with such provisions of laws and regulations and, accordingly, we do not express such an opinion.
INTERNAL CONTROL RELATED TO KEY PERFORMANCE MEASURES
With respect to internal control related to those performance measures determined by management to be
key and included on pages 36 to 51 of this performance and accountability report, we obtained an
understanding of the design of significant internal control relating to the existence and completeness
assertions, as required by OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance
on the internal control over reported performance measures, and accordingly, we do not express an opinion
on such control.

CONSISTENCY OF OTHER INFORMATION
Our audit was conducted for the purpose of forming an opinion on the consolidated and combined financial
statements of SSA taken as a whole. The other accompanying information included on pages 1 to 6, and
111 to the end of this performance and accountability report, is presented for purposes of additional
analysis and is not a required part of the consolidated and combined financial statements. Such information
has not been subjected to the auditing procedures applied in the audit of the consolidated and combined
financial statements and, accordingly, we express no opinion on it.

The required supplementary information included on pages 7 to 62, and 90 of this performance and
accountability report and the required supplementary stewardship information included on pages 91 to 110
of this performance and accountability report, is not a required part of the consolidated and combined
financial statements but is supplementary information required by OMB Bulletin No. 01-09 and the Federal
Accounting Standards Advisory Board. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of the
supplementary information. However, we did not audit the information and express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the consolidated and combined financial
statements of SSA taken as a whole. The consolidating and combining information included on pages 86 to
88 of this performance and accountability report, is presented for purposes of additional analysis of the
consolidated and combined financial statements rather than to present the financial position, changes in net
position, and reconciliation of net cost to budgetary resources of the SSA programs. The consolidating and
combining information has been subjected to the auditing procedures applied in the audit of the
consolidated and combined financial statements and, in our opinion, is fairly stated in all material respects
in relation to the consolidated and combined financial statements taken as a whole.

Our audit was conducted for the purpose of forming an opinion on the consolidated and combined financial
statements of SSA taken as a whole. The required supplementary information, Schedule of Budgetary
Resources, included on page 89 of this performance and accountability report, is not a required part of the
consolidated and combined financial statements but is supplementary information required by OMB
Bulletin No. 01-09. This information is also presented for purposes of additional analysis of the
consolidated and combined financial statements rather than to present the budgetary resources of the SSA
programs. This information has been subjected to the auditing procedures applied in the audit of the
consolidated and combined financial statements and, in our opinion, is fairly stated in all material respects
in relation to the consolidated and combined financial statements taken as a whole.


                                                  *****


We noted other matters involving the internal control and its operation that we will communicate in a
separate letter.
This report is intended solely for the information and use of the management and Inspector General of
SSA, OMB, and Congress and is not intended to be and should not be used by anyone other than these
specified parties.




Arlington, Virginia
November 30, 2001
